<html>
<title> - PROMOTION OUTREACH EFFORTS FOR CENSUS 2000</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
               PROMOTION OUTREACH EFFORTS FOR CENSUS 2000
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 1997

                               __________

                           Serial No. 105-81

                               __________

Printed for the use of the Committee on Government Reform and Oversight







                       U.S. GOVERNMENT PRINTING OFFICE
46-496                     WASHINGTON : 1998
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
                     Michele Lang, Special Counsel
                          Ianthe Saylor, Clerk
           David McMillen, Minority Professional Staff Member














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 1997...................................     1
Statement of:
    Morgan, Michael L., commissioner, Department of City 
      Planning, city of Milwaukee; and Leon A. Meyer, director, 
      City Planning Department, city of Cincinnati, accompanied 
      by Agnese Brienza, senior planner, Hamilton County, OH.....    10
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    74
    Hastert, Hon. J. Dennis, a Representative in Congress from 
      the State of Illinois, prepared statement of...............     5
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    67
    Meyer, Leon A., director, City Planning Department, city of 
      Cincinnati, prepared statement of..........................    27
    Morgan, Michael L., commissioner, Department of City 
      Planning, city of Milwaukee, prepared statement of.........    13











               PROMOTION OUTREACH EFFORTS FOR CENSUS 2000

                              ----------                              


                        TUESDAY, APRIL 29, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9 a.m., in 
room 311, Cannon House Office Building, Hon. J. Dennis Hastert 
(chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Davis of Illinois, Barr, 
Barrett Cummings, and Turner.
    Staff present: Robert Charles, staff director; Michele 
Lang, special counsel; Ianthe Saylor, clerk; David McMillen, 
minority professional staff member; and Ellen Rayner, minority 
chief clerk.
    Mr. Hastert. The subcommittee will come to order. It is my 
pleasure to welcome our guests and witnesses this morning and 
good morning to Mr. Morgan, Mr. Meyer and Ms. Brienza, I 
believe. We will work on that.
    I also would like to extend a welcome to my friend and 
colleague from Illinois, Mr. Davis, who will be joining us from 
the full committee and who has asked to join us here today.
    The hearing is the first in a series of hearings we will be 
holding to review the Census Bureau's preparations for the 
critical task of conducting the 2000 decennial census. 
Throughout the 105th Congress, this subcommittee will be taking 
a very close look at the activities of the Census Bureau and 
will be placing a particular emphasis on ensuring the accuracy, 
reliability and inclusiveness for all Americans in the census 
process.
    Today, we will begin with one of the most important 
elements required for accuracy in the decennial census, the 
conduct of an effective promotion and outreach program to 
ensure that every American understands the importance of 
participating in the census by completing his or her form.
    The General Accounting Office has reported to the Congress 
that voluntary participation is the cornerstone of the 
decennial census, because it is the voluntary public response 
rate through mail-back, which is the most important and 
accurate and effective and efficient source of census data. The 
significance of a large mail-back response is not just because 
it reduces the staff, time and money required, but that it 
produces the best quality census data. Thus, it is clear that 
the most fundamental and important task before this 
subcommittee as it exercises its oversight responsibilities to 
ensure an accurate census, is to examine the efforts of the 
Bureau to achieve a high response rate through promotion and 
outreach.
    Unfortunately, we enter the 2000 census with a historic 
trend of a declining response rate over the last three 
censuses. When coupled with the persistent differential 
undercount of minorities, the problem becomes even more 
serious. These declining response rates have focused and forced 
the Bureau to devote greater resources to nonresponse followup, 
a costly procedure which relies on sending enumerators into 
individual housing units to collect census data. It is 
estimated that in 2000, the Bureau will expend on an average of 
$25 million for each additional percentage point of nonresponse 
to the mailed out form.
    For every percentage point of mail response, there is $25 
million less in resources to spend on promotion and outreach 
efforts in hard-to-count areas.
    However, not all the news is bad. Despite its problems, the 
1990 census was the most thorough census in history, accounting 
for 98.4 percent of the population. The most notable and 
publicized failure of the 1990 census was the majority of 
persons in the 1.6 percent of the population that were missed 
in 1990 were minorities. In a nation where the concepts of one 
person, one vote, and equal representation for all in 
government are sacred principles, it is imperative that these 
problems be resolved in the 2000 census.
    On the bright side, as reported by the National Research 
Council, half of the 1990 undercount was due to missed 
households; that is, households which never even had an 
opportunity to participate in the census. Why did this happen? 
In a nutshell, because of inaccurate address lists. Without an 
accurate address list, the Bureau was unable to get a census 
questionnaire to these individuals and didn't know where to 
send an enumerator to count them.
    I am pleased to see that in the preparation for the 2000 
census, the Bureau has placed a major focus on improving its 
efforts in address list development. While I still have some 
questions and concerns about this process, it appears that the 
Bureau has made great strides in ensuring major improvements in 
the master address list. Through these efforts alone, the 
Bureau has laid the important groundwork to eliminate up to 
half the problem of the undercount.
    However, where our real challenge lies, and the reason that 
we are here today, is to find out how we can reach the other 
half of the undercounted population, which is comprised of 
households which did receive census questionnaires but failed 
to return them for one reason or another.
    This challenge, while not new, is not beyond our 
capabilities to solve. In fact, one of my predecessors at this 
subcommittee, the former Chairman Sawyer of Ohio, offered some 
wise guidance to us on this subject back at a hearing in 1989. 
Mr. Sawyer stated then what is still true today: Minorities and 
the poor are more likely to participate in the census if they 
have genuine confidence that their participation will bring 
them a step closer to playing a more meaningful and fuller role 
in this Nation's system of government.
    Today's hearing is all about how we can translate that 
vision into a reality in time for the 2000 census.
    The key to realizing that vision is promotion and outreach 
at the local level. It should be the building block on which 
the 2000 census is based. Our success in promotion and 
outreach, and ultimately in the census as a whole, quite 
frankly, depends far more on local mayors, school districts, 
business and civic leaders and volunteers, than it does on 
Washington-based statisticians, administrators and consultants.
    These leaders in local communities, not statisticians with 
calculators, are the ones able to capture the unique 
characteristics of their community necessary to reach out and 
communicate the vital importance of individual participation in 
the census.
    We are lucky to have with us today three individuals who 
fill this vital role of community leader that will determine 
the success of the Census 2000 effort. They are uniquely 
qualified to address the issues involved with promotion and 
outreach, and can speak from experience as to what works and 
what doesn't.
    To this end, we will focus on drawing their expertise out 
in three separate and distinct areas.
    First, we will revisit and review the local efforts of two 
communities which were very successful in the 1990 census. 
Conventional wisdom holds that minorities in hard to enumerate 
areas simply won't return their census forms and thus are 
doomed to be undercounted forever. I am pleased to say that 
this just isn't true.
    I commend Mr. Michael Morgan, whose efforts as the deputy 
director of the Department of Administration for Milwaukee, WI, 
in the 1990 census, were instrumental in Milwaukee's achieving 
the second highest mail response rate of all metropolitan areas 
in the Nation. In fact, the response rates in Milwaukee for 
hard to enumerate minority areas exceeded the average national 
response rate for nonminority suburban areas. Through his 
efforts in developing a blueprint for promotion and outreach, 
responsible for obtaining a full and complete count of the 
citizens of Milwaukee, Mr. Morgan has created a national 
example that should disabuse us once and for all of all 
prejudicial notions about what is and isn't possible when it 
comes to including all Americans in the census count.
    In another community, Mr. Meyer and Ms. Brienza of 
Cincinnati, are tremendous examples of how the dedicated 
efforts of local leaders in assuring a complete count at all 
local levels can result in $1 million of increased Federal 
funding for a locality, funding that would have otherwise been 
lost had it not been for both their careful preparation for 
their census and a meticulous followup after the census was 
completed.
    Second, we will examine how well the Census Bureau has 
learned from their experience of 1990 and whether it has taken 
advantage of the knowledge gained through the successful 
techniques implemented by localities in 1990. As with most 
problems in our society, the real solutions are, and in this 
case, were found at the local level. I am most eager to see if 
these hard won lessons have been learned or if we are on a path 
to repeat easily correctable mistakes in the year 2000. The 
Bureau has indicated in written materials and at conferences 
that it understands the key role of building partnerships in 
the communities.
    Has the Bureau listened to the success stories of the 
localities in 1990? Has the Bureau done a good job of 
communicating its plans to those at the local level who will be 
implementing it?
    By exploring the Bureau's plans for 2000 from the 
perspective of local leaders who must actually implement them, 
we will be in a good position to answer these questions.
    Finally, we will examine the larger scope of Census Bureau 
activities for 2000 and determine how they measure up to the 
standard of increasing accuracy through greater voluntary 
citizen participation. This concern cannot be emphasized 
enough, because it strikes at the heart of whether the 2000 
census represents valid data that can serve as a base for 
almost every government function for the next 10 years or 
whether it is just merely just another set of numbers whose 
validity is in question and is viewed by the public with the 
kind of skepticism usually reserved for political polls.
    Each of us should be asking at least three questions: 
First, whether the Bureau's overall census plan encourages or 
discourages political empowerment in these hard-to-count 
communities through participation in the census?
    Second, does the Bureau's overall plan work to overcome a 
deep mistrust in the government process which many of these 
hard-to-count communities hold? And third, through its actions, 
is the Bureau sending contradictory messages to the American 
people about the need for individual participation in the 
Census 2000? If these questions cannot be answered 
satisfactorily, there is a great cause for concern.
    I look forward to exploring these issues in depth today and 
at this time I would like to recognize the ranking member of 
the subcommittee, Mr. Barrett of Wisconsin, for his opening 
statement and also thank him for his bipartisan assistance in 
pursuing our common goal of having the best ever census in the 
year 2000.
    [The prepared statement of Hon. J. Dennis Hastert follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Barrett. Thank you, Mr. Chairman, and thank you for 
holding this first of a number of hearings we will hold on the 
important issue of the census. As we all know, the Constitution 
requires us each 10 years to hold a census so we can determine 
how many representatives we should have in each State in the 
country.
    Over the course of time, of course, we have also seen 
another reason for the importance of the census and that is 
because so many Federal dollars flow as a result of where the 
people live in this country.
    As we will find out this morning, my home community, 
Milwaukee, has done an excellent job of counting people in our 
community and it has done so with the relatively high number of 
minorities.
    If you were to put together a black list or a Hollywood 
film you probably would want three elements in it. You would 
probably want money; you would probably want power and you 
probably want sex. I am not suggesting we throw sex into the 
mix, but we already have incentives for a good census, the 
issues of power and the issues of money. Because the number of 
representatives that a community will have or a State will have 
in Congress, of course, is dependent on the count, as is the 
number of Federal dollars they receive.
    So, I believe that there are built-in incentives for local 
units of government to do a very, very good job in counting the 
people in their community and for that reason I am very proud 
of the job that my home community has done.
    Mr. Hastert. I thank the ranking member. We are very 
pleased to have three distinguished witnesses with us today: 
Mr. Leon A. Meyer, the director of the City Planning Department 
of the city of Cincinnati, and with him is Ms. Agnes Brienza, a 
senior planner with Hamilton County.
    Now, I would like to yield to Mr. Barrett to introduce the 
gentleman from Milwaukee, WI.
    Mr. Barrett. Thank you again, Mr. Chairman. I am very 
pleased to introduce Mike Morgan, who has come out on the same 
plane I did last night, to share his testimony with us this 
morning.
    As I indicated, Milwaukee did a fabulous job in 1990 in 
performing our census duties. There was a real local 
involvement that was spearheaded in large part by Mr. Morgan, 
and he played a key leadership role in performing the census in 
Milwaukee. He has been with the city for many years. He is a 
fine member of our community and a fine member of my 
neighborhood, and it is nice to have you here.
    Mr. Morgan. Thank you very much, Congressman.
    Mr. Hastert. The Committee on Government Reform has in its 
rules that we swear in all of our witnesses. So would you 
please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses have 
answered in the affirmative.
    Mr. Morgan, would you please lead off?

 STATEMENTS OF MICHAEL L. MORGAN, COMMISSIONER, DEPARTMENT OF 
CITY PLANNING, CITY OF MILWAUKEE; AND LEON A. MEYER, DIRECTOR, 
 CITY PLANNING DEPARTMENT, CITY OF CINCINNATI, ACCOMPANIED BY 
      AGNESE BRIENZA, SENIOR PLANNER, HAMILTON COUNTY, OH

    Mr. Morgan. Mr. Chairman, members of the Subcommittee on 
National Security, International Affairs, and Criminal Justice, 
good morning. I am Michael Morgan, commissioner of the 
Department of City Development of Milwaukee, WI.
    First, I would like to thank you for the opportunity to 
speak on this important subject. Eight years ago, as was 
indicated, I was responsible for getting a complete count of 
the citizens of Milwaukee during the 1990 census enumeration. 
We believe that our efforts succeeded. The district office of 
the Census Bureau that includes the city of Milwaukee had a 
mail response rate of 82 percent, the best in the United 
States. Metro Milwaukee's mail response rate was 60 percent, 
the second highest of all metro areas in the Nation.
    The 1990 census found 628,000 people living in Milwaukee. 
State and Federal projections had estimated our 1990 population 
at only about 600,000.
    The additional people found by our efforts have meant tens 
of millions of dollars in additional State aid to the city of 
Milwaukee and helped preserve a congressional seat for the 
State of Wisconsin.
    Milwaukee is the 17th largest city in the United States, 
and 40 percent of our population are minorities. Historically, 
minorities have been undercounted by the census, as has been 
indicated here today, and one reason we suspect that that is 
true is because that part of our community is very distrustful 
of government.
    Also, our minority residents are often poor. Their mobility 
makes them hard to find. What we found is that folks in the 
poorer community tend to move a lot and it is very difficult, 
from time to time, to find them.
    The city of Milwaukee, of course, wanted an accurate census 
count to ensure that we had fair levels of congressional 
representation and our fair share of State and Federal aid.
    Under the leadership of Mayor General Norquist, we 
aggressively pursued a complete count strategy in 1990 and our 
objective was to use local people to do people-to-people 
contact, to support the Census Bureau's own data collection 
process. We needed to do three things very well: One, build 
trust among the minority community, regarding the census; and 
to reassure people, No. 2, about the confidentiality of census 
information; and then, No. 3, heighten the appreciation for the 
importance of the census among our citizens.
    Our complete count program actually began about a year 
before the census date. We got started by interviewing the 
dozens--interviewing dozens of local government officials and 
50 neighborhood and social service agencies. We talked to staff 
at homeless shelters, community clinics, halfway houses, 
immigrant service organizations, food pantries, just among 
others.
    We asked everyone for their suggestions on how to reach the 
undercounted community, the minority community. Using the 
insights provided by these groups, we devised our complete 
count program, following some general principles, and I will go 
through them real quickly.
    No. 1, get census information to places patronized by 
target audiences and use languages they understand. We 
distributed literature in unconventional places like resale 
shops and currency exchanges. A local tortilla manufacturer put 
census promotional labels on 70,000 packages of tortillas.
    Our materials were printed in a variety of languages, and 
these are materials that we produced locally. We produced 
materials in Hmong, Spanish and Russian, just to name a few. We 
happen to have a fairly large Hmong and Russian population.
    We did presentations at community events like Cinco de 
Mayo, Black History Month presentations, Vietnamese new year, 
bamboo volleyball tournaments. We found that bamboo volleyball 
was very popular upon the Hmong and Vietnamese community, and 
at powwows.
    Our TV promotional ads featured Reverend Jessie Jackson and 
professional athletes, and rap singers. We even awarded gifts 
to the first baby born on census day.
    No. 2, we hired staff from the community that we wanted to 
reach. Our outreach staff was intimately acquainted with the 
neighborhoods and residents of Milwaukee's central city. They 
were known and trusted. And we also referred qualified local 
residents to the Census Bureau in its search for enumerators.
    And No. 3, we recognized that the complete count required 
effort and money. The city of Milwaukee spent over $400,000 in 
cash and donated services and will have to spend about that 
much again in the year 2000 to ensure a thorough count in the 
next enumeration, census enumeration.
    Again, we started our effort almost a year before the 
Census Bureau did on April 1, 1990. Our project was kicked off 
with publicity in the fall of 1989 and we had an office opened 
in Milwaukee a full year before the Census Bureau was 
functioning in January of that year.
    We knew that our advance work was going to be real critical 
so we got started right away.
    I understand now that the Census Bureau has proposed many 
strategies to improve response rates to the 2000 census and we 
support these changes. We also offer the following suggestions 
to ensure the count--to ensure that at least the count in 
Milwaukee and Wisconsin, is complete.
    No. 1, we feel the Census Bureau ought to consider local 
complete count projects as part of the team. We should not be a 
separate and distinct--we shouldn't have a separate and 
distinct Milwaukee or Wisconsin project. It should be part of a 
holistic approach to try to reach the undercounted population 
and the Census Bureau should be the lead agency on this team 
effort.
    Also, the Census Bureau should try to take advantage of 
local expertise, knowledge and expertise of the community. That 
means promptly sharing information about issues like mail 
response rate in particular neighborhoods so local complete 
count staff can provide help in reaching those areas. The 
certification of local outreach work to the census enumerators 
could help improve the Census Bureau followup rate also.
    No. 2, we feel the Census Bureau must hire local people who 
are well acquainted with census city neighborhoods for 
enumeration activities in those areas. We have to eliminate 
barriers such as newspaper ads indicating that enumerators 
would be subject to FBI checks, suggesting that a more onerous 
investigation would be conducted to check the background of 
potential enumerators. We want folks to be hired from the 
community in which they live.
    Now, we understand that the Census Bureau has to do a 
background check and that's something that we are familiar 
with, but the mere fact that you mentioned that an FBI check is 
going to be performed tends to dissuade some folks, who may 
otherwise be qualified, from applying for a job with the Census 
Bureau.
    No. 3, the Census Bureau should offer appealing incentives 
for mailing in the completed forms. We did some very simple 
things. For example, we teamed up with local fast food 
restaurants and we made coupons available for people who turned 
in their census forms and it worked.
    And No. 4, we feel that Congress must understand that a 
people-to-people count, we feel, is the most effective way of 
doing the census enumeration, and Congress must provide the 
resources necessary for such an effort.
    There really is no option, no other option, if we want a 
full and accurate count.
    I have submitted a written statement regarding some of the 
things that we did in Milwaukee in much more detail, more 
detail than I have already talked about here today, and I would 
ask that that written statement be part of the record.
    And I thank you, Mr. Chairman, and Mr. Barrett, for 
inviting me here today.
    [The prepared statement of Mr. Morgan follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Your written statement will be made a part of 
the record, as is everyone's written statement will be made a 
part of the record. Thank you very much for being here and your 
excellent testimony, and we will have a few questions later.
    Mr. Meyer.
    Mr. Meyer. Thank you very much. Good morning, Mr. Chairman 
and members of the subcommittee and guests. Thank you for 
inviting Cincinnati to come and be a part of the hearing. I 
invited Agnese Brienza to join me because she was the driving 
force behind the 1990 census. I had just gotten my job as 
planning director at the city of Cincinnati in 1989, right 
before the 1990 census was due, so I wanted to bring Agnese 
because I knew you would have some questions about how that was 
put together. She will be very instrumental in the year 2000 
census as well.
    Your letter asked for information concerning the 1990 
census experience in promoting census participation, hard-to-
reach areas. I would summarize that up in one word, and that's 
BLITZ. You find every agency, every organization, every church 
group, every member that you possibly can to be a part of this 
process. You also use every kind of communication device you 
can, TV, radio, handouts, brochures, et cetera. Then one of the 
very effective things we do, and I am sure everybody does, is 
the school system, when your children come home from school 
they can bug you pretty heavily about what is the right thing 
to do. So, the school system is a very important part of this.
    But I would like to make three other main points. No. 1 is 
the census numbers and data has got to be user-friendly, and I 
will get into why in a minute. Getting buy-ins from the 
governmental and nongovernmental agencies that are being 
contacted is an absolute must.
    No. 3 is a local review program that's been used in 
previous censuses must stay. If the one number census means 
that the local review program goes, I would suggest that we 
need to keep the local review program.
    User-friendly, the numbers must be user-friendly when they 
are done. Thirty-nine of the census tracks in the city of 
Cincinnati include both Cincinnati figures and county figures. 
We are in Hamilton County. Ms. Agnese Brienza is the senior 
planner with Hamilton County in Ohio.
    Thirty-nine of those census tracks in the city of 
Cincinnati have city figures as well as county figures. So, 
when we start to use this information, we have to take out the 
county numbers and keep the city numbers when we use the census 
information. This has impacts on performance measures and how 
we do those numbers. Every time we look at census information, 
we have to go back to ground zero and basically massage those 
numbers. If we could have census tracks that were completely 
within the city, that would help.
    Now, I realize that's against history and the census 
information has used geological features as well as man-made 
features to establish those lines, but if you are really trying 
to get to municipalities you have got to make it easy for the 
municipalities to use these numbers.
    The next most important one is: Are we collecting these 
numbers for the Census Bureau to have a number or are we 
collecting them for us to use? And I think that's the basic--
that's the basic question.
    For instance, Jacksonville, FL, which is ahead of 
Cincinnati when it comes to using performance measures, they 
have a booklet out, ``Life in Jacksonville, Quality Indicators 
for Progress,'' which I highly recommend to people if they are 
interested in that subject.
    They have a distinct advantage because their county and 
city have the same boundaries so they don't go through this 
process of trying to eliminate figures that happen to be in the 
county and not in the city.
    This leads me to point No. 2, getting buy-in from 
governmental and nongovernmental agencies and businesses. In 
order to entice all areas of the country to be willing to 
perform this monumental task that we go through every 10 years 
you must illustrate how the census will benefit the area. The 
``what is in it for me'' attitude and is really important in 
this situation.
    In 1990, the total population, the first figure was a 
little over 352,000. We had done projections each year actually 
from 1980 to 1990, and we were sure the number was higher than 
that, so we actually went out and counted all those census 
tracks that were on the borders of Cincinnati and came up with 
an additional 12,000 people.
    That has translated into receiving an additional $4 million 
a year to the city of Cincinnati. Over a 10-year period that's 
$40 million. That is one way to reduce the budget, but not a 
way that Cincinnati would like you to do, actually.
    In order to sell the idea of buy-in, the Census Bureau may 
want to collect a number of stories similar to Cincinnati's and 
then put out a pamphlet and say, this is how the census, a 
correct number, can affect your community.
    I don't want to leave the impression that I am blaming the 
Census Bureau for Cincinnati's original undercount. It was an 
honest mistake, but one that needed correction, a correction 
that was accomplished through the combined efforts of the 
Census Bureau, the city of Cincinnati and Hamilton County. It 
was allowed to be made possible because of a local review 
program, which is my third point.
    The local review program is really important to keep or at 
least some way of doing that because there must be a way to 
refute and change incorrect numbers. That's really so important 
in municipalities to get the correct number. So I strongly urge 
that some kind of local review program be kept.
    At hearings such as these, I know there is a tendency to 
emphasize the negative. However, I want to say a few positive 
words. I went to the Annapolis, MD, April 9 through 11 
conference that was put on by the Census Bureau and it was well 
done in every aspect. The entire conference was well-planned, 
well-executed. There were even special dietary needs that were 
respected.
    The Census people obviously wanted to do a better, less 
expen- sive job of getting the right numbers, and there are 
four fundamen- tal strategies for Census 2000: Partnership, 
simplicity, technology and statistical methods are exciting. It 
is the implementation of these strategies that I am somewhat 
worried about and my re- marks are intended to help in this 
process. Obviously, I am going to continue to work on this for 
the next 3 years and so is Ms. Brienza.
    We are open for questions any time you want. We can submit, 
if you like, more statements about how we did the 1990 census 
now that Mrs. Brienza is on board with me.
    [The prepared statement of Mr. Meyer follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. That would be very much appreciated, and we 
will put that in our record.
    I would like to ask a few questions. First of all, Mr. 
Morgan, you say in your testimony that you were motivated to 
pursue an aggressive census outreach strategy because of three 
things: One, without a full and accurate count Wisconsin might 
have lost a congressional seat; two, local reapportionment and 
redistricting were at stake; and, three, $3 million of Federal 
funds stood to be foregone.
    In fact, with the outreach efforts you conducted you found 
28,000 more people than State and Federal projections had 
estimated living in Milwaukee and, in fact, your mail response 
rate was the second highest, next to Indianapolis, of all 
metropolitan areas in the Nation.
    Do you think that other communities have to be on the verge 
of losing a congressional seat to be motivated like you were?
    Mr. Morgan. Well, you know, I can't speak for what 
motivates municipalities and States, but I can state 
definitively what motivated Milwaukee and Wisconsin, and it is 
what is stated in both my oral, as well as my written 
statement.
    We found it so compelling of a challenge that we felt 
something had to be done. We couldn't stand idly by and not put 
together a campaign to get as accurate a count as altogether 
possible.
    The city of Milwaukee had had some difficulty with its 
population before. After the 1980 census, we were very much 
dissatisfied with the counts that we got. We had a special 
census in 1985 and once again we showed that the State 
projections in terms of Milwaukee's population had been lower 
than the actual number of folks living in our municipality. So 
we had had sort of a running feud, if you will, with the State, 
in terms of how it estimated the population of the city of 
Milwaukee.
    When it came to the 1990 census, because we did have these 
compelling factors that we were faced with, we thought 
something had to be done and we decided to spend some money to 
put together a campaign to work with the Census Bureau.
    Mr. Hastert. Do you think that, having been through the 
1990 outreach effort, which is now documented you say in 
several thick volumes of information, and we are looking 
forward to looking at those, that it will still be necessary to 
hire outside consultants to assist your efforts?
    Mr. Morgan. The Census Bureau has proposed some things that 
I think will make the 2000 enumeration much better. It appears 
to be moving away from its policy of buying or asking for 
public service announcements to a more ad-specific 
professionally done approach to trying to reach the 
undercounted population.
    It appears to be moving toward working toward partnerships 
with local municipalities and States in terms of who it is that 
they will hire. It appears that they are going to continue to 
use the local review, which means that we will share 
information, so that if we have questions or if we can provide 
some assistance, we can do so very early on. So they have made 
some real, I think, progressive things with regard to the way 
that they will go about trying to count people in the year 
2000.
    However, I still feel very strongly that municipalities and 
States have to take the bull by the horns and do whatever they 
can to ensure that the envelope is pushed and that they are 
getting as accurate a population as possible, particularly 
those municipalities like ours that have a high percentage of 
minority folks, who tend to be undercounted the most, who tend 
to be distrustful of government.
    Our poor communities tend to be very mobile. We really have 
to find those individuals in a consulting community, and we 
happen to know who they are because they helped us the last 
time. We need to find them to help us do a good job. So I 
think, yes, we will.
    Mr. Hastert. You indicated for the 1990 you began your 
planning for outreach efforts almost a year before the actual 
census date. Is the city of Milwaukee thinking now about its 
efforts for 2000?
    Mr. Morgan. Yes, we are, in fact. Of course, your asking me 
to be here today prompted a lot of that thinking. We had 
exchanged a few memos.
    I am in the Department of City Development now. We are in 
real estate and business development. But the current director 
of the Department of Administration, I know, is looking at some 
of our volumes of old data and trying to decide now what our 
strategy will be for the 2000 census.
    Mr. Hastert. Mr. Morgan, your testimony stated that 
Milwaukee's promotion and activity campaign was in full swing 
in the fall of 1989, while the census office was not even fully 
staffed until January 1990.
    Should Congress follow your lead by mandating and funding 
full field staffing and outreach programs to start in the fall 
of 1999 rather than waiting until January 2000?
    Mr. Morgan. I am not sure full field staffing would be 
appropriate that early in advance, but I think there are 
opportunities for the Census Bureau to begin to gear up a 
little bit earlier than they did the last time.
    We had a good relationship with Stanley Moore in the 
Chicago regional office, but they were a little bit late in 
joining with us in terms of our effort to try to get a complete 
count. So, we would like to see them talk to us much earlier, 
maybe participate in some of the planning to start to gear up 
before--and mobilize for the census count a little bit earlier 
than they did the last time.
    Mr. Hastert. Thank you, Mr. Morgan.
    Mr. Meyer, what do you think about that?
    Mr. Meyer. It is interesting you should ask me because we 
started a year and a half ahead of time as well, and Ms. 
Brienza could probably speak about that more. But, I think it 
is absolutely important to start ahead of time. I think what 
you have to do is to get people's attention. It may not be a 
full staff, but just get people's attention so they do start 
ahead of time. I think that's key. Just starting in January and 
going to April 1st is not enough time.
    Mr. Hastert. Not enough?
    Mr. Meyer. No.
    Mr. Hastert. My time is up. I think we will go through a 
second round. But at this time I would like to yield to Mr. 
Barrett from Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman. As you may know and 
as my democratic colleagues may know, Milwaukee and Wisconsin 
does come to this issue from a unique perspective because, as 
Mr. Morgan indicated, we were basically on the bubble in 1990 
and we were very close to losing a congressional seat in 
addition to the millions of dollars that were discussed.
    After Milwaukee and Wisconsin did an excellent job in 
counting the residents of the State, we, in fact, earned some 
rewards or some plaudits from the Census Bureau for the 
excellent counting job that we did. After receiving those 
awards, we were then told that a statistical adjustment would 
be made and we would lose a seat. That led the State of 
Wisconsin, along with several other States, to become involved 
in litigation that went all the way to the Supreme Court, on 
the issue of whether there should be an adjustment made, a 
statistical adjustment.
    I mention that because I think the perception is out there 
that the Democrats are on one side of this issue and the 
Republicans are on the other side of this issue.
    I feel very strongly that you can have an accurate count, 
in particular in urban areas, if you take the type of 
aggressive approach that the city of Milwaukee took. Again, I 
applaud Mr. Morgan and our mayor, Mayor Norquist who recognized 
the reality that if Milwaukee is going to receive the dollars 
that is due it and the political representation that it is due 
it, it would take some aggressive and creative thinking.
    So, I was amazed during this period in Milwaukee to see 
this campaign, and it was literally a campaign, where local 
leaders were involved, where, as Mr. Morgan indicated, grass-
roots citizens got very involved in this process. I think it 
not only helped the campaign, but I think it actually helped 
the community. I think what it does is it forces local 
political leaders sometimes to go to areas where they would not 
go as often, and I think what this does is it--whether the 
local leaders like to do it or not, it forces them to get in 
touch with the people.
    Just a couple of questions, if I could.
    Mr. Morgan, in your testimony you mentioned that one of the 
things that was effective was printing some of the information 
in other languages. We have in Congress pending legislation, 
English-only legislation, which, frankly, I think would make it 
far more difficult to have that type of outreach in other 
languages.
    How important was that for the drive in Milwaukee, being 
able to print those documents in other languages?
    Mr. Morgan. I think that was extremely important for our 
efforts. It is real important that, particularly in our 
immigrant communities, that they feel comfortable with the way 
information is presented, because to give our Hmong population, 
for example, they are a little bit distrustful of government 
because of the repressive nature of the governments from the 
countries that they immigrated from. So, when they come here, 
it takes a little bit of time before they understand that our 
governmental system is a little bit different from maybe what 
they had back home.
    We thought it was real important that we put into the hands 
of the leaders of that community information in their native 
language that could be explained, that could be disseminated 
and understood about our community.
    So, I think it is extremely important that we have census 
information in the language of those communities in which we 
are working.
    Mr. Barrett. Mr. Meyer or Ms. Brienza, did you use any type 
of outreach in other languages?
    Ms. Brienza. No. In Hamilton County, it is not necessary.
    Mr. Barrett. You don't have the immigration population that 
you have in other parts of the country?
    Ms. Brienza. That's right.
    Mr. Barrett. In terms of local involvement in Cincinnati, 
did you use a lot of local people to get out?
    Ms. Brienza. Oh, yes. We started a year and a half to form 
the complete count committee. What we did, we had two honorary 
chairs, the mayor of the city of Cincinnati was then Charlie 
Luken, who was in Congress for 4 years, and the president of 
the county commissioner, who was Bob Taft, who is now the 
Secretary of State. Also, we have a chair from the private 
sector, Ray Clark, who was the CEO of the Cincinnati Bell.
    We did an incredible outreach and we documented in this 
thick volume all of the outreach we did, especially in the 
minority neighborhood, in the black and also other minority 
because in Cincinnati we have an Appalachian community. They 
don't trust the government too much. We work very close to the 
Omnibus Coalition. We have at least 10 or 15 organizations 
directly or indirectly in the Omnibus, and we work with them 
very closely.
    Then we work with the press, all the schools, from the 
universities to the Headstart Program. We sent fliers home in 
each school district in Cincinnati. We have 22 school 
districts, two vocational schools, obviously two large 
universities and a large college. So, we used all the 
newspapers and newsletters. We used the Inquier Newspaper, the 
large newspaper in town, and the corporate community. We had 
incredible help from the corporate community, from Cincinnati 
Bell to Proctor and Gamble, General Electric and others. We had 
a cooperation with the CBC, which is a large group of CEOs 
that's the Cincinnati business committee. The outreach was 
incredible.
    We designed our own logo. By the way, I would like to say 
that the office, the Census Office in Detroit Michigan, that's 
our region, they were always very helpful, especially Dwight 
Dean, the director, who is still there now. And we had 
incredible help from them, too.
    We had our logo, that says ``Count Me In,'' in many size 
and forms, from stickers to large banners and on the buses, the 
metro buses in town.
    We also asked Public TV, Channel 48, to produce a 3 or 4 
minute commercial and it was aired on the major stations for as 
a public service announcement.
    Mr. Barrett. Did the local television stations donate time?
    Ms. Brienza. Yes, on public service announcement.
    Mr. Barrett. At a good time or in the middle of the night?
    Ms. Brienza. Oh, no, no, a good time. Also Channel 48, 
obviously, did the production completely free.
    The press was incredible. We had a lot of editorial. In 
Hamilton County, it is a very diverse county because we have 37 
municipalities and 12 townships. Obviously, the city of 
Cincinnati is the major city. We worked with each mayor of 
those 37 municipalities and each township trustee, so that the 
cooperation was great.
    We didn't have a congressional district issue, but one 
issue was for some of the municipalities they would lose their 
city status if they were less than 5,000 so their effort was 
very incredible.
    Mr. Barrett. Thank you.
    Mr. Hastert. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I want 
to thank all of you for being here today. I want to also 
congratulate you on what you have been able to accomplish.
    Let me ask this: Fiscal year 1996, the Census Bureau asked 
for $6.6 million for promotion and outreach, but was funded at 
$1.2 million. In fiscal year 1997, the request was $18.8 
million and the appropriations was $8 million. You both, all of 
you indicated in your testimony, that a successful campaign 
must start early. It seems to me that this underfunding of the 
outreach and promotion process put us at a catch-up situation.
    What would you recommend to be done with regard to that 
issue, Mr. Morgan?
    Mr. Morgan. Well, as I indicated before, I think there has 
to be a realization that if we are going to reach those 
undercounted groups in our cities and in our rural areas, we 
are going to have to spend dollars. If Congress is serious 
about an enumeration that counts every individual, then we are 
going to have to get into the community, spend the dollars 
necessary, employ the techniques that we know have been 
successful and get the job done.
    So, I am not sure what spending level is appropriate. 
That's something for Congress to try to understand. But there 
has to be an understanding that there is going to be a need for 
dollars.
    That community that we are talking about is a very 
difficult group to get at. Conventional techniques sometimes 
don't work. So it becomes a little bit labor-intensive, hiring 
individuals to go into those communities or hiring individuals 
from those communities to go back into those communities to 
work and to find those individuals.
    So, the frustration and the balancing--the frustration may 
be that while on the one hand we don't want an estimate, but we 
want a complete count, the dollars aren't there to do those 
things that are necessary to get that complete count. There has 
to be a balancing and we need the dollars. You need the 
dollars.
    Mr. Cummings. I live in such a community, so I understand 
exactly what you are talking about.
    There is a tremendous distrust of the government and 
people, when they see anything coming from the government, it's 
likely to be thrown in the trash unless it is something from 
IRS. I am just wondering, the workers who you all hire to go 
into difficult areas, who are they? I mean, how do you convince 
them that their job is very important? These are tremendous 
jobs. So you wonder about who it is that is being hired. And I 
am just wondering, how do you make sure that they are folks 
who--I mean, how do you get them up and get them excited about 
what they are doing? Because I think this kind of work can be 
rather--it is grunt work, and I am sure the pay is not 
extremely high.
    Mr. Morgan. No, no, the pay is not.
    Mr. Cummings. How do you get them motivated?
    Mr. Morgan. Well, what we did was, instead of trying to 
reinvent the wheel and hire workers to go into a community that 
had folks who were dedicated and working in their community, we 
suggested to the Census Bureau that they hire folks who work in 
the homeless community and to get into the homeless community 
and to get the count there, that they hire folks who work in 
social service agencies in the Hispanic or the Hmong or the 
African-American community to work in those communities.
    And you get two things: You get folks who are trusted by 
their community, who if they say that the information is going 
to be kept confidential, individuals in that community are 
likely to believe them because they tend to be leaders in that 
community.
    They know where these folks are. The individuals can't hide 
from them. They understand the community.
    And the other thing, of course, is that to the extent that 
you are able to have the Census Bureau hire these individuals, 
sometimes that means extra dollars for that worker who may be 
working on an income from a social service agency so there is a 
little bit of a bump. There is an economic benefit for those 
individuals to work with the Census Bureau.
    Mr. Cummings. Just one last question.
    Mr. Hastert. Yes.
    Mr. Cummings. Thank you. You know, President Clinton has 
proposed that 4,000 people be hired from our welfare rolls to 
do this, do some census work. Do you all have any opinions on 
that?
    Mr. Morgan. I have been monopolizing the questions. I will 
defer to someone else.
    Mr. Cummings. No, you go ahead.
    Mr. Meyer. Go ahead.
    Mr. Cummings. Ms. Brienza.
    Ms. Brienza. I just want to say in 1990 we encouraged the 
Bureau of the Census, and they did, to hire local people. And 
so in our area, for instance, in Cincinnati, where most of the 
minority are, we have a very good organization already in 
place. We have a 52 community council. So we encourage--we did 
talk to each community council president to help us in the 
effort to count and include everybody, and also hire people 
from each community. So it was easy for them to be trusted.
    For the welfare, you know, the new goal that President 
Clinton has, I think it is in Cincinnati we already have 
something underway because we have a program that is called 
Cincinnati Works. It is lead by Mr. Phillips, who is a retired 
CEO. He works for $1 a year. It is to revitalize the downtown. 
So the program, it is Cincinnati Works, they try to take people 
from welfare and train them for special work, and also provide 
baby-sitting, health insurance, all the other appropriate 
things. So what we can do, probably we can talk to Mr. Phillips 
and team up with him for the year 2000 census.
    Mr. Morgan. Mr. Cummings, I would say, yes, I think we 
should look at welfare, former welfare recipients, as potential 
workers for the census.
    What we found in Wisconsin, through programs like New Hope, 
which is probably the best welfare reform proposed today, is 
that welfare recipients, if given an opportunity to work, if 
given adequate child care, if given adequate training, provide 
invaluable services to the community. And I see no reason why 
we shouldn't look to that work force as a potential group to 
help us get a good enumeration in 2000.
    Mr. Meyer. I would like to respond to your first question, 
sir.
    I think you see the people who make this work sitting to my 
left and right. All you need to do is find a person like this 
in each community, and you'll have your number by the time 
we're done with the year 2000.
    I think that's the trick is how do you get--how do you use 
your resources at the Federal level to find the commitment of a 
Mr. Michael Morgan and a Ms. Agnese Brienza. That's the key 
right there because these people have put together the numbers 
for their areas, and the way they have done it is by their 
leadership is how it happens, how you trickle that down from 
the Federal Government, how you use the Federal staff to find 
these people, because I think that's the easy way for the 
Federal Government to do it. They don't have to do it 
themselves. Basically, the two people sitting to my right and 
left are the ones that did it in each of those two communities.
    Ms. Brienza. Can I say something? Also, I want to clarify 
one point. For the Complete Count Committee within Cincinnati, 
the in-kind stuff, our full time is so that--the person in 
Cincinnati Bell worked full time. We didn't have any money. I 
mean, we didn't have any budget. We just asked the corporate 
community, the private sector and they really helped. We asked 
for one company to do 1,000 fliers and another one to print it 
or design it.
    So we didn't have any special budget for the Complete Count 
Committee. I don't think money is the answer. Like we really 
need to look for people who have an interest and have love for 
the community and understand the importance of counting 
everybody.
    Mr. Hastert. Thank you.
    Mr. Meyer, you make the point in your testimony that little 
is done these days because it's the right thing. Our sense of 
truism seems to be weighing in the fear of citizens and for the 
majority of society. Our local communities must be able to see 
the relation to them of the census data with the resources.
    Do you have any other advice with the Census Bureau 
regarding ways they might effectively communicate the 
importance of the census in order to strengthen the willingness 
to participate in the outreach or promotion efforts?
    Mr. Meyer. I think that goes to my last answer is you've, 
again, got to find people that are really committed to the 
census number. I'm not sure how you do that. I think some 
people come on board because all of a sudden they've seen the 
importance of it.
    That's why I suggested the pamphlet idea, to convince 
communities this is really important to them, and not just to 
the Federal Government just to find the right number and say, 
we now have so many billion people living in the United States. 
I think if you convince them it's important to them, then 
you'll get the right number. How you go about doing that, I 
don't know.
    Mr. Hastert. I'm sorry. Mr. Barr came in here. I'm sorry 
sir.
    Mr. Barr. That's OK. I thank you, Mr. Chairman.
    Mr. Morgan, to follow on questions you were responding to 
just a few minutes ago about temporary employees to assist in 
this particular effort, of course they can't be compensated if 
they receive Federal assistance such as food stamp program, 
Federal housing, school, breakfast programs, job training 
partnerships and the Head Start. Have you experienced this 
prohibition as limiting the available pool of citizens that 
might otherwise be qualified to be hired by the Bureau for 
purposes relating to the 2000 census? Do you think that 
Congress should consider waiving this prohibition in order to 
make the pool of applicants as large as possible, as 
Congresswoman Carrie Meek, for example, has suggested in recent 
legislation?
    Mr. Morgan. Congressman, I cannot recall those prohibitions 
you speak of as being a problem in 1990. Of course, that 
doesn't mean it isn't a problem, it just means I don't have any 
present recollection that we had any real discussion regarding 
our inability to get folks who may have been on welfare or may 
have received the Federal benefits, some other Federal benefit, 
from working with the Census Bureau.
    It seems to me that to the extent that we would want to 
look at individuals in that pool as potential workers, we would 
do whatever we could to make our efforts successful in reaching 
out to that group so that if there is an opportunity, if there 
is a problem, and if there is an opportunity for waivers, I 
guess it should be considered. But I can't say that that was a 
real issue for us in Milwaukee in 1990.
    Mr. Barr. OK. Do either of the other two witnesses have any 
experience or recommendation in that particular area?
    Mr. Meyer. I don't really have any experience, but my 
immediate reaction is waive it. And that goes back to the idea 
that if we're going to do this, we've got to get out of the box 
of our old way of thinking. You can't do new things if you keep 
thinking in the same old ways. So, in this situation, as soon 
as you can ask the question, what came to my mind is, why not? 
I don't see any reason why you shouldn't do it.
    Ms. Brienza. I have to agree with Mr. Meyer, yes.
    Mr. Barr. OK.
    Ms. Brienza. It's one way to find people to really help, 
because it's such a short time. So why not?
    Mr. Barr. I gather, both from reviewing some of you all's 
written testimonies as well as just listening to some of the 
questions since I've got here, that you all believe that 
special outreach and promotion efforts are best left at the 
local level. Is that a fair statement? Do you all agree with 
that?
    Mr. Meyer. You certainly have to do them at the local 
level.
    Mr. Morgan. I think the local municipalities should be 
equal partners with the Census Bureau in getting the outreach 
effort done.
    Mr. Barr. Mr. Morgan, I know that your effort was 
particularly successful in a lot of these areas in reaching 
some of the traditionally harder to reach groups in some of our 
communities; African-American community, for example. Could you 
just very briefly tell me how you developed or perhaps how best 
we can develop a plan to target each individual ethnic and 
racial group so that we can best get that count?
    Mr. Morgan. Well, I can briefly recount what we did because 
we assumed that we didn't know enough about those communities 
that were undercounted. What we did was we went to folks who 
work in those communities every day, who provide services for 
them, and we asked, what is the best way of going about 
counting individuals in that community? What are some of the 
challenges or obstacles to counting that community? And he told 
us what they were.
    We kind of, you know, had a, you know, an idea of what it 
might be based on, some writings on the part of sociologists 
around the country, and that is, you know, those communities 
tend to be distrustful of government.
    The confidentiality of the information gathered on the 
census form was really something that concerned a lot of 
individuals in the community. So based on that--and the other 
thing, of course is communicating with leaders in the community 
who then would communicate with others in the community.
    After gathering that information, we put together the 
campaign that we thought got at those challenges, began to 
erode some of those barriers, and we were fairly successful.
    I would hope that we would go through a little bit of the 
same process for the 2000 enumeration also; that is, make sure 
that we understand what's going on in the community, what are 
those challenges, what are those barriers, and what are those 
best strategies for getting at that community.
    Mr. Barr. That would include, I presume, utilizing agencies 
such as social services agencies, United Way; agencies that are 
already active in communities working with those very citizens.
    Mr. Morgan. Absolutely, Congressman. I think that's the 
key. Even with the promotional efforts that we had in 
Milwaukee, we still found that the response mailed in from 
minority census tracks tended to be a little bit less than what 
we found in other census tracks. The real key, however, was 
getting workers into the community and finding those 
individuals, and getting those forms completed, and getting 
them back to the Census Bureau. That's where their hard work 
is. That's where you have to get in the trenches and have the 
foot soldiers out there, to use the military analogy. You get 
the foot soldiers out there and go house to house and door to 
door and get the information.
    Mr. Barr. OK. I appreciate the witnesses, and I appreciate 
very much, Mr. Chairman, your convening these hearings well in 
advance of when we're going to have to be facing these problems 
so we can begin working now rather than later.
    Ms. Brienza. Can I say something?
    Mr. Hastert. Yes.
    Ms. Brienza. I want to say two things. One, in Hamilton 
County, we were very concerned about counting the homeless. So, 
where we did organize lunches, I went a few times in the 
homeless shelter to have lunch with the homeless and all the 
appropriate organizations that worked with the homeless 
organization. So, they felt very comfortable to eat together 
and talk.
    And one other thing that was important in 1990 in Hamilton 
County, including Cincinnati, was the local review program. 
What the Bureau of the Census did in 1990, was give a chance to 
the community to check the housing unit and the number of 
people. As I understand from the literature that I received 
from the Bureau of the Census, for the year 2000, they're going 
to eliminate the local review program, and I think that's the 
most important program because it's one way you can check the 
accuracy of the census.
    I don't feel it's that expensive. It shouldn't be that 
expensive because we know that the technology today, a lot of 
communities are organized, and also, even if they do it with 
the land use map, they can easily double-check the census 
number. So, it seems to me that it's going to be very 
detrimental to complete count to eliminate the local review 
program, which means check the census number after the April 
1st count.
    Mr. Hastert. Mr. Morgan, one of the things that you had 
talked about and mentioned is you really did some--I think some 
probably unique thing, that is, put messages on the wrappers 
for tortillas. That was a real outreach which is a product of 
imagination and effort. So, that was a special effort. Each 
community, I would guess, is a little special in those regards.
    One of the issues I think is going to come down, a dialog 
that we're having with the Federal Government and the Congress 
right now is that the Federal Government thinks, well, every 
community can't be as unique as maybe Milwaukee was, so the 
easy way is just to take statistics and to figure out 
statistically where those people may be.
    I think that if you give communities the resources and the 
incentive to do the right thing, and that's what the 
Constitution says, to count, to enumerate, you can get the job 
done, and even in a superior way. How do you feel about that?
    Mr. Morgan. Well, you know, our city hasn't taken an 
official position, but I will tell you how I feel about it.
    Mr. Hastert. I'm asking you for your feeling.
    Mr. Morgan. At the end of the day, it seems to me the most 
accurate way of understanding who is there is to find that 
individual and count them. And understanding that that's a hard 
thing to do, that you're going to have to spend money to be 
creative, to get the job done, is something that I think that 
Congress needs to wrestle with a little bit in terms of you 
know what dollars are going to be made available to the Census 
Bureau and maybe even what dollars may be made available for 
local municipalities like Milwaukee.
    But it's my feeling and I--you know, I've taken a look at 
some of the testimony, for example, that our Attorney General, 
Jim Doyle, made. It's my feeling that constitutionally it seems 
that the best way to go about preserving the integrity of the 
process and understanding who is in our cities and who is in 
our States is to get out and count them.
    Mr. Hastert. Do you feel that maybe a secondary benefit 
from this--and it's probably a leading question, but I want 
your reaction to it, and, Mr. Meyer, you may react to this, 
too--is when you actually reach out, find that person, where 
he's at, what his ethnic makeup may be or his beliefs, that you 
also reach out and find a person that the city can actually 
then help and make sure that the city or county or whatever 
agency is out there searching for those people, they can better 
serve.
    Mr. Morgan. Absolutely. One of the things that statistical 
adjustments may not be able to get at is, right down to the 
census track, an understanding of actually who that individual 
is. With statistical analysis, and I'm not a statistician, it 
seems to me that you make certain assumptions, and sometimes 
those assumptions don't lie on the census track level.
    In cities like ours where provisional services and dollars 
for social services are tied to the Census Bureau, it's real 
important that you get down to that level in a way that you'll 
never be able to get with that.
    Mr. Hastert. Mr. Meyer.
    Mr. Meyer. Yeah, I may echo that. Actually my first degree 
is with mathematics, and I have had some brush with statistics. 
What I would be concerned about is that you're not really 
finding out who these people are. You might be able to count 
them and estimate the count, but when you get down to it, you 
want to know who they are. If we take that step down the road, 
there might be another step beyond that, which all of a sudden 
we're doing just the statistical census in the future and not 
actually going out and trying to count as many people as 
possible.
    I'm real leery of a statistical census. I think we ought to 
use that information as a check, but I would be very concerned 
about getting rid of the local review program, as Ms. Brienza 
has stated.
    I don't think we ought to use census as part of getting at 
the final number. We ought to use it as a check.
    Mr. Hastert. Mr. Barrett.
    Mr. Barrett. Ms. Brienza, you indicated that there were 
corporate dollars for loaned employees.
    Ms. Brienza. Yes.
    Mr. Barrett [continuing]. That were involved in that, which 
is an experience, I think, quite dissimilar from Milwaukee. I 
don't recall Milwaukee using corporate dollars or loaned 
employees.
    My concern with that is do you think that there is any 
danger that if you use corporate dollars or loaned employees, 
that there might be areas where they don't want to get 
involved.
    Ms. Brienza. Yes. I wasn't clear. Mr. Ray Clark, who was a 
CEO of Cincinnati Bell, agreed to chair the committee. So after 
all, it's very important for any corporation to have accurate 
census information, because, you know, they use it, that type 
information all the time from between the censuses.
    And the corporate--there was no corporate dollars as such. 
There was a budget with in-kind donations.
    I was asking to different corporations, because I had 
contacts in different places. They just agreed to help, but I 
don't see any interest. See, their goal was to have a complete 
count with all the accurate information, you know, the 
socioeconomic information and others, the location, because 
that's where they are. They sell their product. They install 
their phones. P&G sells their soap. You know, it's good to have 
a complete count, good census information. It's not only 
important for local government, but it's very important for the 
private sector, too.
    Mr. Barrett. Well, that underscores my concern a little 
bit, especially when you talk about the sale of products. For 
example, one of the controversies that I have been involved in 
is the sale of insurance and allegations that insurance 
companies may want to sell in one part of a community but not 
in another part of a community. So, if we accept in-kind 
contributions from a corporation that is interested in a very 
accurate count for one part of the community for sales or 
promotional purposes, but has no desire at all to serve another 
area, my concern is you may get corporations that say, well, 
these are the areas that we like to serve. Frankly, I think 
that the very area that we're concerned about not reaching is 
the area where there's not a lot of dollars, and so that the 
incentive is small up there to have an outreach.
    Ms. Brienza. They only help us to publicize the census, to 
make everybody aware that--you know, to answer the question, to 
answer the questionnaire.
    Mr. Meyer. Yes. I think one of the things you're driving at 
is is there a conflict of interest here, and I don't believe 
there is from the point of view that the corporation has helped 
us to get to the number.
    Now, if you get to the numbers in your scenario, and then 
the corporation is going to use that number in a wrong way, 
you're going to still get to the number. Whatever you do, 
you're going to have a number there, so you might as well get 
to the most accurate number. We can't help how the corporations 
use it, whether they're involved or not. So, they're not 
involved from a conflict of interest point of view. They're 
involved to try to get Cincinnati, and this was a community 
effort.
    Ms. Brienza. Yes.
    Mr. Meyer [continuing]. Community effort throughout the 
county and I think the city is even going to be more involved 
because, actually, we have a 40 percent African-American 
population ourselves, and I'm going to talk to this gentleman 
after we're done talking to you all because he has a lot of 
good information that we can use.
    But to get back to the corporate thing, Cincinnati has 
always been a community that works closely with corporations. 
The community, the CBC, which is the CEOs for all the big 
companies downtown, and it's probably lead by Proctor & Gamble 
as much as anybody, they've always been involved in the arts 
and in these kinds of developments, and they give us in-kind 
services, and it's done in a manner that is not at all, I'm 
doing this and I want something back. I'm doing this for the 
community. And that's really the flavor of it. I don't have any 
problem with that in Cincinnati. Whether it would happen in 
another city, I can't tell you. I don't know that.
    Ms. Brienza. Can I clarify one thing?
    Mr. Barrett. Go ahead.
    Ms. Brienza. In Cincinnati we have a program. It's called 
Leadership Cincinnati. It's on the 25th year, and I was a 
member of one of the classes. The Leadership Cincinnati is 
organized by the Chamber of Commerce. It's also done in other 
cities. I don't know if it's in your cities--in your city. They 
have a class of 50--45, 50 of the leaders of the community in 
different fields, and they are very--you know, they're black 
and white; they're men and women. They're not necessarily--
they're people from a company.
    So when I called Ray Clark, who was then the CEO of 
Cincinnati Bell, I called him as an alumni of Leadership 
Cincinnati, he was my friend, because I knew that we have an 
organization. So it's like a sorority in a sense.
    Mr. Barrett. Yeah.
    Ms. Brienza. I wasn't thinking about the company. I was 
thinking about the person. I knew he was a respected person in 
the community. People listen to him. And the public officials 
don't have too much time to get involved in it. I called--so 
it's kind of different. If I know some of the CEOs, it's 
because I know them through the Leadership Cincinnati, not for 
what they sell or what they work----
    Mr. Barrett. OK.
    Ms. Brienza [continuing]. Only by what they want to give to 
the community.
    Mr. Barrett. Chairman, I just have one other question. In 
1993, Congress passed the Address List Improvement Act to allow 
local communities to review the census address list before the 
census. Has your community had any interaction with this thus 
far, this law? I have to admit I was in Congress, and it's not 
one that jumps out of me. I thought maybe among census gurus it 
was one that sort of hooked in.
    OK. Mike.
    Mr. Morgan. Well I can tell you this: I did a little bit of 
research, and I found that this had been passed, and I asked 
our demographer in the Department is that a good thing, and she 
said yes.
    Mr. Barrett. OK.
    Mr. Morgan. And as far as we're concerned at this point----
    Mr. Barrett. OK.
    Mr. Morgan [continuing]. It's a good thing to have the 
ability to get the addresses.
    Mr. Hastert. All right.
    Mr. Barr. Thank you, Mr. Chairman. Just one final brief 
question. It's my understanding that the Bureau's current plan 
calls for direct sampling of nonresponses to begin within 14 
days of census day. However, expert testimony that I believe 
was recently provided to the Senate Governmental Affairs 
Committee cautions that the Bureau's direct sampling scheme 
precludes making special outreach efforts at the sampling stage 
to hard-to-reach, hard-to-enumerate groups because those 
efforts would introduce bias into the nonresponse followup 
sample. I'm not sure all of that makes sense, but that's 
apparently their view.
    The problem that I see is this seems to indicate that the 
Bureau will discourage special promotion and outreach programs. 
Mr. Morgan, do you have any familiarity with that or any 
comment on that?
    Mr. Morgan. You know, I don't have a lot of familiarity on 
that, but I would say that any policy that tends to discourage 
outreach into those hard-to-reach communities is not a good 
thing. You know what we should do and you know, I'm a little 
bit reticent to comment because I don't really know if I 
understand your statements, Congressman, with regard to what 
the Census Bureau is proposing.
    Mr. Barr. I'm not sure I do either, but that was their 
testimony.
    Mr. Morgan. Right, but I guess what I'm saying is we should 
do whatever we can to ensure we're communicating with that 
community and that we're reaching out to them and encourage 
them to participate in the census. And anything that 
discourages that I think is a negative.
    Mr. Barr. Thank you. Thank you, Mr. Chairman.
    Mr. Hastert. One of the questions that plagues me from time 
to time is that we send out short forms in the census, and 
relatively easy for people to answer. Then, I think 1 in every 
7 or 1 in every 8 forms is a long form. Especially, in the 
hard-to-reach areas where people are a little bit questionable 
about their trust in government, I'm afraid that those long 
forms probably don't get answered and in the sense that maybe 
they are thrown away as Mr. Cummings has talked about.
    Could you tell us what your feeling is? Was it easier. My 
view of this thing is the job of the census is to count people, 
make sure we know what the accurate number of people are in 
this country and where they live. The long form tends to get 
into a lot of different details at some time--you know, does 
your water come from a well, or, do you have a septic system, 
and all these types of things that maybe some people would like 
to know, but really isn't the necessary stuff that we have to 
have to count people and make an accurate census. What was your 
experience with the short form as opposed to the long form?
    Mr. Morgan. Our experience was that the short forms worked 
very well in terms of getting the undercounted groups to 
respond, particularly as workers went into those communities. 
On the other hand, I have to say that for planning purposes, 
the information that you pick up on the long forms is fantastic 
information.
    Ms. Brienza. Yes.
    Mr. Morgan. But, you know, I tend to agree with you, 
Congressman, and that is that I think the primary function of 
the census is to count people, and if we can do that and get 
the information on the long form and do it well, then that's 
great. But we should come down on the side of doing those 
things that get an accurate count, and I think the short form 
tends to do that better than the long form, in our experience.
    Mr. Chairman. Mr. Meyer.
    Mr. Meyer. I would agree with that, except, being somewhat 
into demographics, we need that information to be able to plan 
for our cities with the information that's supplied on the long 
form. The problem is when you allow people to voluntarily fill 
it out, you almost self-select certain things. You get certain 
people filling them out, so your information might not be that 
accurate.
    So, what you need to do is the way the Bureau is doing it 
is statistically just send a certain number out to the 
population so that we keep those numbers fairly accurate from a 
statistical point of view about who's filling them out. I would 
like to keep it, but as you say, we need the numbers.
    Mr. Hastert. Would you be in favor--and this is, I don't 
know what the statistical ability to do this and how the use 
comes out, but to me we need to make sure that everybody fills 
out a short form. That gives the information. And among 
respondents, you can go back out after the fact then and ask 
them to fill out a long form. If they responded once, probably 
they'll respond twice. But the quality of the census is not a 
threat here. Do you think that would be a possibility?
    Mr. Meyer. If you're directing that question at me, again, 
I think that that would have a tendency to self-select to 
certain groups and probably be statistically inaccurate. Also, 
once you fill one form out, my guess is, just from personal 
view, I don't want to fill out another form. I mean, I don't 
mind filling out the long form to start with, and I would do 
that willingly, but after I do the short form and then later 
come back and ask me to do the long form, I don't think I 
would. I don't know how the rest of the population would relate 
to that.
    Mr. Hastert. Mr. Morgan.
    Mr. Morgan. Well, I don't think that I really have anything 
to add. I think Mr. Meyer summed it up accurately. I really 
couldn't comment on that.
    Mr. Hastert. OK. Great.
    Let me ask you, according to the Bureau's own documents, it 
admits that smaller governments may have trouble finding the 
time and resources to participate in the PLS, which is the 
Postal List Service, so crucial to an accurate list. And the 
basis is that if you have the right list of addresses, that you 
can go out and find the people.
    Doesn't this argue for a greater level of Federal activity 
or supplemental funding to assist communities in these efforts? 
I mean, what is your experience with this?
    Mr. Morgan. Our experience is that that's of crucial 
importance that we get good and accurate lists, that we cross-
reference whatever sources that are available for getting 
addresses as early on in the process as possible so that we 
know where the people are, where the addresses are, and we can 
respond back to the Census Bureau.
    For example, in our city there are areas where we're 
building, there are new addresses, and there are areas where 
we're, quite frankly, not getting units of housing or buildings 
down.
    It's real important that the Census Bureau have accurate 
information in terms of what's there and what's not there 
anymore. They need accurate addresses. They need to cross-
reference. We need to be involved in the dialog in terms of 
understanding how those lists are put together.
    Mr. Meyer. One of the things we're doing in Cincinnati, 
we've actually already started----
    Ms. Brienza. Yes.
    Mr. Meyer [continuing]. For addresses, and one of the 
things that's going to be very important for Cincinnati is we 
have a Cincinnati Graphic Information System, or for short GIS, 
who I'm sure you've all heard of across the Nation, but ours is 
one of the most accurate, I think, across the Nation.
    We've been working on the accuracy of the addresses for the 
last 8 years, and it will be very accurate for the year 2000. I 
think the census ought to look at those particular lists, 
because depending upon the particular community, that could be 
your most accurate information. And we're doing that for other 
reasons, so we have a reason to have it accurate.
    Cincinnati Bell, we have a consortium of the city of 
Cincinnati, Hamilton County, Cincinnati Bell and Cincinnati Gas 
and Electricity. So, you can see they want those figures and 
addresses to be accurate.
    The addresses, when you get into it, is a tremendously 
complex, difficult issue. I think people have a tendency to 
say, well, what's the problem? You have one house, you have one 
address. We have some homes that have four or five different 
addresses for some reason or other. You don't know why, but it 
happens.
    When you start dealing with these issues in these 
geographic information systems, you find how complex. The 
Census Bureau has had to deal with these issues for a long 
time. And so I would suggest that they really look hard at 
those as being a source of information for them.
    Mr. Hastert. Thank you.
    Mr. Morgan. For illustration, Congressman, if I could, we 
have fairly jagged borders with other neighboring 
municipalities in the city of Milwaukee, and what we found was 
that in working with the Census Bureau--and by the way, the 
Census Bureau was very, very helpful and very cooperative in 
the 1990 enumeration with the city of Milwaukee. We found that 
in cases, whole blocks of our city were moved over to 
neighboring municipalities. Of course we----
    Ms. Brienza. That's right.
    Mr. Morgan [continuing]. We corrected those.
    So we have a GIS system also that's fairly sophisticated, 
maybe not as good as Cincinnati, but we're very proud of it. 
And to the extent that we can work together with the Census 
Bureau in understanding the addresses and what's in the city 
and what's not in the city, that's real important early on in 
the process.
    Mr. Hastert. I also would like to welcome Danny Davis, who 
is a member of the full committee, not a member of the 
subcommittee, but we would like to invite him to ask any 
questions he might want to.
    Mr. Davis. Thank you very much, Mr. Chairman. I didn't have 
a lot of questions, but I did indeed want to make a statement. 
But I certainly appreciate the opportunity.
    I note, though, that both Milwaukee and Cincinnati had 
undercounts that were perhaps larger than the national average. 
I happen to come from the experience of having lived all of my 
life among individuals who were hard to count. I mean, that is, 
I have deliberately lived in what would be poor areas, and 
those individuals seemingly have a greater bit of difficulty 
participating effectively in many components of life.
    In terms of the undercounting, did you find that it was 
pretty much relegated to certain areas or certain type 
population groups or certain communities?
    Mr. Morgan. Well, first, in terms of the undercounting in 
the city of Milwaukee, I think our undercount was less than the 
national average. In fact, we did a pretty good job of getting 
to the undercounted groups.
    To answer your question, that the groups that tended to be 
undercounted are the groups that--African-Americans and other 
minorities, Hmong, Spanish in the city of Milwaukee. Russian 
immigrant groups tend to be undercounted, and poor people, and 
we knew that was the case. And that's where most of our efforts 
and most of our success in terms of finding undercounted folks 
were.
    We worked directly in those communities, both in terms of 
trying to get a good mail response and then getting out and 
going door to door enumerating folks, filling out the forms 
with workers from those communities.
    Mr. Davis. Would you suggest that there was a difference in 
the African-American community that was say, ``middle class'' 
and an African-American community that had lower socioeconomic 
standards?
    Mr. Morgan. Yes. Poor people definitely were--whether 
they're African-American or white or any other ethnic group 
tended to be a lot more difficult to find and to count. More 
middle class, more educated individuals tended to do better in 
terms of mail response, and we understood that. We understood 
that going in because we did a lot of work in preparation for 
doing a good job of enumeration.
    Mr. Davis. Then are their special targeting efforts----
    Mr. Morgan. Yes.
    Mr. Davis [continuing]. Here toward a particular group, and 
what might those be?
    Mr. Morgan. Well, what we did in the city of Milwaukee, was 
to go into the community and find those individuals who worked 
with what we knew were the hardest segment of our population to 
count. We asked the Census Bureau to hire some of them, we 
hired some of them, and we sent them back into the community to 
work with those individuals, to get them to respond to the 
census--the Census Bureau forms, to turn those forms and to 
complete the forms.
    We worked through a variety of outlets, homeless shelters, 
social service agencies, mill programs. You name it, we did it. 
We worked with boys' and girls' club. We invited folks in. We 
did special promotions, too, that provided coupons for folks 
who responded. We did a variety of things that were targeted 
for specifically that segment of the community. That's why I 
think we were successful, because we knew the greatest gain was 
getting at that group that had been persistently over the years 
been undercounted.
    Mr. Davis. I just have one--the promotions, I assume that 
these were creative promotions that sort of emerged in many 
instances through interaction----
    Mr. Morgan. Absolutely.
    Mr. Davis [continuing]. With the people themselves.
    Mr. Morgan. Absolutely.
    It's easy for us to impose a solution on a problem rather 
than going in and trying to understand the problem and having 
the folks who work in those communities come up with a solution 
to the problem. And that's what we did. We went into the 
community. The tortilla--we talked earlier about the printing 
of--you know, respond to the census on tortilla packages. You 
know, that wasn't something that spontaneously came up during 
the course of a discussion between myself and the consultants, 
that was an idea that came up with Hispanics in the community 
that said, you know, we really ought to do something with this 
packaging because we know it's reaching a large number of 
Hispanics. That's just one example of a creative way of getting 
the message out to that hard-to-count population.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Meyer. Yeah. I would like to respond a little bit to 
that. The undercount in Cincinnati was basically we just missed 
a bunch of dwelling units, or the census did. So we went back 
through, and we have a statistician that works for the city of 
Cincinnati, and we felt we knew pretty close what that number 
ought to be, and it was just off by too much, so we went back 
to find that.
    After being here today, though, and this is another way to 
communicate things, our population is 40 percent African-
American, and you can bet we're going to be talking to Mr. 
Morgan to find out how to make sure we get an accurate count 
out of that population as well. So, we'll see what happens next 
in the year 2000.
    Ms. Brienza. One thing we did in 1990 for the complete 
count, we focused on the inner-city school and sent fliers home 
with each kid, and more than once. Also, we used all the 
community leaders, Boy Scout, Girl Scout, and--and also the 
Head Start program, the Community Action Agency. It's very 
active in, you know, as a--about 5,000 kids in the Head Start 
program in Hamilton County. So, it reached a lot of people. We 
encourage also the parents, you know, to participate. And we 
had different programs.
    Mr. Davis. And I assume that the schools were cooperative?
    Ms. Brienza. Oh, absolutely. The schools were absolutely, 
and also the Head Start school where most parents are anyway. 
So there was a lot of interaction.
    Mr. Davis. Thank you, Mr. Chairman. That concludes my 
questions. I would ask for permission at the conclusion to 
enter a statement into the record.
    Mr. Hastert. Without objection. Thank you for joining us 
today, and I just wanted to say that you weren't here for the 
beginning, but Mr. Morgan's city of Milwaukee was the second 
best city as far as getting information back in the whole 
Nation because of the efforts, and they actually did a better 
job than the Census Bureau did.
    I welcome a member of our subcommittee, Mrs. Maloney.
    Mrs. Maloney. Thank you. I would like to know if I could 
put my opening remarks in the record.
    Mr. Hastert. Without objection.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Maloney. Right. Well, congratulations on doing so 
well, Mr. Morgan. The Census Bureau has been talking about 
spending roughly $100 million to advertise the 2000 census. Do 
you think this will help your local efforts? Would you 
recommend that most of the advertising be targeted at hard-to-
count populations or directed to the general public?
    Mr. Morgan. Well, I--yes, it will help, it will help 
tremendously. And I think there has to be a balance between a 
strategy of broadly promoting the census and a strategy of a 
targeted efforts to promote the census in those undercount 
efforts. In fact, I would go so far as to say that the 
preponderance of the dollars should be spent in trying to get 
at that undercounted community because it is a very difficult 
community to get at.
    I think the Census Bureau should think strategically about 
the form in which it advertises to ensure that it is using 
outlets that will get to that community; that is, you know, the 
PSA sort of approach, public service announcement sort of 
approach, is good in terms of general knowledge about the 
importance of the census. But you really have to be a little 
bit creative in terms of getting to the undercounted community 
in a language that they understand with individuals that they 
trust.
    Mrs. Maloney. Would other people like to comment?
    Well, you mentioned getting to them in a language that they 
understand. We've heard some reports that there were problems 
with translations used in the promotion materials of 1990. And 
did you experience, any of you, any such problems with 
translations used; and if so, would you describe the problems 
and how we would address them? You've brought up the point it's 
important to reach them with people they know, with their 
language. Was there any problem with the 1990 census in that 
direction?
    Mr. Morgan. You know, I'm happy to say that we worked well 
with the Census Bureau in getting the language, the 
information, translated into languages for those targeted 
communities that we had to reach.
    In fact, Stanley Moore was very helpful in working with us 
in ensuring that we had the information in the language, in the 
form that we needed it.
    Mrs. Maloney. What in your opinion was the largest problem 
in the promotion of the 1990 census, and what would you do to 
correct it?
    Mr. Morgan. Well I think a promotion, the area that we have 
to work the hardest is getting to a segment of the community 
that really doesn't want to be counted, just doesn't want to 
have a dialog with the government, or for that matter anyone 
else. This is the homeless community. These are poor people who 
move around frequently, particularly in their central city. 
These are folks who are distrustful of the government because 
they may have individuals living in the household who may be 
illegally living in the United States.
    So, the real hard part and the preponderance of the effort 
on our part in the city of Milwaukee was to have individuals go 
into the community and talk to those individuals, people who 
worked in those communities.
    So our effort was really--and I used the military analogy 
before--we had to get into the trenches. We had to get some 
foot soldiers out there to talk to these folks. No amount of 
promotion was going to convince that segment of the population 
to mail back the responses. We knew that wasn't going to happen 
after a while, so we had to get folks out there to sit and to 
help get those forms completed.
    Mrs. Maloney. Well, about 2 weeks ago, excuse me, you 
wanted to----
    Mr. Meyer. Yes. Could I respond in a slightly different 
manner? I think what Mr. Morgan is talking about is, once you 
have a good, in-place organization like he heads up, to get to 
people, I think what the Federal Government's level--and I made 
this comment before you entered the room--is how do you get to 
people like Mr. Morgan to head up counting people in the 
different communities? And I think that's the Federal charge 
is, how do you make sure that each one of the municipalities, 
each one of the townships, each one of the cities, et cetera, 
actually has someone like Mr. Morgan that is out counting 
people?
    Mrs. Maloney. Very quickly, last week we celebrated pay 
equity day, and women are still paid at 71 cents to the dollar. 
What was interesting is they got to the number by the census.
    Ms. Brienza. Census.
    Mrs. Maloney. That's how they reached that number. It's an 
important number to me, it's an important number to my 
constituents. This was gathered on the so-called long form. The 
long form gathers a lot of important information for the 
National Institute of Health, for pay, for demographics, for 
businesses actually. I have the Chamber of Commerce wanting Mr. 
Hastert to come down and talk to them in my district. So, the 
businesses are very concerned about what is gathered in the 
census. It happens very rarely, as you know, and it's a very 
important time.
    We had a hearing last week where we talked about what would 
be on the short form and the long form. And we had interesting 
testimony that some of the scientists felt they needed 
consistent information so they----
    Ms. Brienza. That's right.
    Mrs. Maloney [continuing]. So they could track what is 
happening in the country in certain areas. Yet, on the other 
hand, there is the need to really graph other information that 
really shows where we are as a Nation, and I use the example of 
the pay equity. And I just like to ask your opinion on the 
short and long form. There's been some debate on it. I 
personally support both forms. They both have important 
information on it. But many of you have been on the front 
lines, and I would like to hear your response. Anyone on the 
panel.
    Ms. Brienza. I supported the long--the short and long form 
like you because all the information on the long form, they use 
it every day. For instance, I'm board member of the Community 
Action Agency, and we're doing now need assessment for the 3- 
to 4-years-old Head Start program. We used the long form from 
the Bureau of the Census to assess the children below the 
poverty level, so the long form it is very important.
    Also, it's very important, like they say, to have community 
involvement because it's only the community people who can make 
everybody answer the census, because in 1990 we received boxes 
of information from the census, but we had a lot of people were 
able to give out information in the flier because it wouldn't 
serve any--anybody any good just to keep the information in 
somebody's office.
    But I agree with you, the long form is absolutely--it's 
important for many, many things. But the community development 
program, for instance, every year, between census, we still use 
the 1990 census up to the year 2000 to qualify community. And 
the long form information, I use it.
    Mr. Meyer. There's another interesting point that I didn't 
even realize until the day before I came here, and I was 
talking to a genealogist who goes back and looks at the census 
information for over 70 years ago, because it's not made public 
for 70 years, and finds--the other information that he finds on 
that, on what would be the long form now, probably the best 
information he can get in trying to trace people and trace his 
family. He's probably traced thousands of relatives and done 
that a lot through the census. So, there's another interesting 
aspect to this that I wasn't even aware of.
    Mr. Hastert. Well, I thank the panel and all the Members 
who are here today to contribute, and especially Mr. Davis, who 
is a visitor to our committee from the full committee. It's 
clear that we've learned a lot.
    I think there's probably three things that we've also 
gleaned from this. No. 1, it's important that the community be 
committed and involved in trying to find the best way to reach 
the undercounts and to make sure that we have accurate counts 
of people living in our cities and other places in this 
country, and certainly Milwaukee and Cincinnati have led the 
way, and your testimony was very, very much appreciated today.
    Second, we've found that promotion and outreach is 
certainly one of the keystones to be able to get members and 
citizens counted in this country, and we need to do an adequate 
amount of that, along with trying to lay out the accurate 
information, especially in the address lists that we have to 
work on.
    And since we know that effective promotion and outreach can 
be done, we should certainly fully support those efforts and 
make sure that the funding is available in the appropriations 
process to do exactly that.
    The Constitution requires us to have a census every 10 
years, to count the people in this country to make sure that 
this Congress is adequately apportioned, and many, many other 
things that go along with it. There's a lot of extenuating 
results that come out of the census count, but I think the most 
important is to get the accurate count of the citizens of the 
United States.
    You've helped us very much today. I appreciate your 
testimony. Anything that you could add to the record would be 
greatly appreciated, and we would welcome that. And this 
committee is closed.
    Ms. Brienza. Thank you very much.
    Mr. Morgan. Thank you, Mr. Chairman.
    [Whereupon, at 10:50 a.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Danny K. Davis follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                   - 

</pre></body></html>
